                           U.S. Department of Agriculture

                               Office of Inspector General
                                          Northeast Region




               Audit Report

USDA’S Implementation of the National Strategy
           for Pandemic Influenza




                                Report No.33701-01-Hy
                                         January 2008
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250
January 15, 2008

REPLY TO
ATTN OF:      33701-01-HY

TO:           Cindy J. Smith
              Administrator
              Animal and Plant Health Inspection Service

ATTN:         William J. Hudnall
              Deputy Administrator
              Marketing and Regulatory Programs Business Services

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      U. S. Department of Agriculture’s (USDA) Implementation of the National
              Strategy for Pandemic Influenza


This report presents the results of our audit concerning USDA’s implementation of the National
Strategy for Pandemic Influenza. Your response to the official draft, dated December 20, 2007, is
included as Exhibit D. Excerpts of your response and the Office of Inspector General’s (OIG)
position are incorporated into the Findings and Recommendations section of the report. Based on
your response, we were able to reach management decision on 8 of the report’s
10 recommendations. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer. Management
decision for Recommendations 4 and 10 can be reached once you have provided us with the
additional information outlined in the report section, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the planned corrective action and timeframe for implementing Recommendations
4 and 10. Please note that the regulation requires management decision to be reached on all
findings and recommendations within 6 months of report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
USDA’s Implementation of the National Strategy for Pandemic Influenza
(Audit Report No. 33701-01-Hy)

Results in Brief                      On November 1, 2005, the President of the United States announced the
                                      National Strategy for Pandemic Influenza (Strategy), a comprehensive
                                      approach to addressing the threat of pandemic influenza. 1 Building upon the
                                      Strategy, the Homeland Security Council (HSC), advisors to the President,
                                      released the Implementation Plan of the National Strategy for Pandemic
                                      Influenza (Plan) in May 2006. The Plan included over 300 tasks that were
                                      designed to ensure that the Federal Government, along with State and local
                                      partners, continue to prepare for a possible outbreak in the United States. It
                                      assigned the Department of Agriculture (USDA) the responsibility for
                                      completing 98 of these tasks.

                                      The Secretary of Agriculture assigned the Under Secretary for Marketing and
                                      Regulatory Programs the responsibility for ensuring tasks were effectively
                                      performed. The Under Secretary appointed a facilitator to compile and
                                      convey the status of USDA’s progress to HSC. Each task was given a
                                      measure of performance that was to be completed by a specific date. The
                                      measures of performance required USDA to implement and/or revise
                                      procedures and coordinate with other Federal agencies to prepare for a
                                      possible pandemic.

                                      The 98 tasks were divided into 57 lead 2 and 41 support 3 tasks. The support
                                      tasks necessitate periodically collaborating with other Federal agencies and
                                      addressing what is requested by the lead agency. Of the 98 tasks, we
                                      reviewed 55 that were to be completed by February 2007, which included
                                      26 lead tasks and 29 support tasks. We examined whether USDA had
                                      adequately implemented the actions (lead and support tasks) required by the
                                      Plan. We also followed up on the status of corrective actions to
                                      recommendations made in our previous audit, Oversight of Avian Influenza
                                      (Audit Report No. 33099-11-Hy), issued in June 2006.

                                      We found that USDA has made significant progress in developing or revising
                                      policies and procedures to detect, contain, and eradicate highly pathogenic
                                      avian influenza (HPAI). For example:

                                      •    The Animal and Plant Health Inspection Service (APHIS) helped to
                                           develop an interagency response playbook 4 that detailed step-by-step

1
    A pandemic is a global disease outbreak.
2
    The lead agencies are responsible for coordinating with the supporting agencies and implementing the tasks according to the measures of performance
    specific to each lead task.
3
    Support agencies are not responsible for ensuring that the support tasks are completed but are to coordinate and collaborate with the lead agency.
4
    The Interagency Playbook for Domestic Response to a Detection of HPAI H5N1 in Birds, dated August 2006.

USDA/OIG-Audit 33701-01-Hy                                                                                                                    Page i
                        actions that Federal agencies should take in response to an HPAI
                        outbreak.

                    •   APHIS revised the Summary of the National HPAI Response Plan to help
                        Federal, State, local, and private entities respond rapidly.

                    •   APHIS implemented a “Biosecurity for the Birds” program to provide,
                        among other things, surveillance of backyard birds.

                    •   USDA’s Office of Communications developed and                 distributed
                        pre-scripted risk communication messages about HPAI.

                    •   APHIS expanded its avian influenza indemnification regulation to include
                        compensation for losses incurred due to infections of low pathogenic
                        strains of H5 and H7 because of their potential to mutate to HPAI.

                    •   USDA has collaborated with other Federal agencies and the private sector
                        to prepare for, detect, and respond to a pandemic.

                    According to the HSC, USDA met the measures of performance for all the
                    tasks completed through May 2007. We found that USDA took action on
                    each lead task we reviewed; however, it did not institute adequate
                    management controls to ensure readiness in the event of an outbreak. Also,
                    USDA did not correctly report the status of two major APHIS functions to
                    the HSC.

                    •   APHIS has not yet implemented its ePermit system, a web-based system
                        that would allow it to rapidly issue, track, and verify the validity of
                        import permits for live avian species or products. Currently, only a
                        manual import permit process exists. APHIS inaccurately reported to the
                        HSC that permits for high risk importers can be withdrawn electronically.
                        According to an APHIS official, permits can be timely withdrawn with
                        the manual system; however, this has not been tested.

                    •   APHIS also inaccurately reported the status of its actions to stockpile
                        emergency response protective equipment. APHIS reported that it
                        stockpiled enough personal protective equipment in strategic locations to
                        protect workers. However, the equipment has been stockpiled at one
                        location, not in multiple locations, as reported to the HSC.

                    These reporting errors occurred because USDA did not implement adequate
                    management controls, such as second-party reviews of lead tasks. In addition,
                    4 of the 29 support tasks were not assigned to the correct APHIS official who
                    could ensure the tasks were properly completed or who had the authority to
                    commit resources. This occurred because USDA did not monitor the

USDA/OIG-Audit 33701-01-Hy                                                                Page ii
                    responsiveness to the support tasks. As a result, there is reduced assurance
                    that USDA can respond at the time of an outbreak, to the extent reported to
                    the HSC.

                    We also found that USDA did not test newly developed procedures or assess
                    and evaluate the revised procedures to ensure they worked as designed.
                    USDA reported that it had completed all 26 lead tasks that were due through
                    February 2007 (see Exhibit A). However, we determined that the processes
                    and procedures related to 14 of the 26 tasks had not been tested. Of these
                    14 tasks, 10 related to APHIS procedures; 2 were associated with the Office
                    of Communications; and 1 each related to Agricultural Research Service and
                    Food Safety and Inspection Service procedures.

                    For example, APHIS did not update its website to notify stakeholders within
                    24 hours of a confirmed outbreak, which highlights the potential gap between
                    reported accomplishments and actual achievements for the untested tasks.
                    The Plan did not require USDA to test the measures of performance to ensure
                    they worked as designed; thus, USDA did not require agencies (i.e., APHIS)
                    to test their procedures. However, APHIS’ own guidelines require testing of
                    its policies and procedures by participating in realistic exercises. Because this
                    testing was not done, USDA lacks assurance that policies, procedures, and
                    plans developed or revised in response to the Plan will work as designed in
                    the event of an outbreak.

                    In addition, APHIS did not fully implement two of the eight
                    recommendations from our prior report, Oversight of Avian Influenza (Audit
                    Report No. 33099-11-Hy, issued June 2006), as of September 2007. The
                    recommendations were intended to strengthen APHIS’ ability to respond to
                    an avian influenza outbreak. APHIS agreed to implement the corrective
                    actions no later than December 2006. Our recommendations addressed such
                    matters as coordinating with States and obtaining their response plans, and
                    revising APHIS’ Response Plan (see Exhibit C). Although APHIS has taken
                    strides to implement the corrective actions, it has not been able to finalize
                    their Response Plan or agreements with State level authorities. This occurred
                    because APHIS did not assign a program official with the responsibility to
                    finalize corrective actions addressed in our prior report. As a result, APHIS
                    has reduced assurance that it will be able to timely and effectively respond in
                    the event of an outbreak.

                   According to USDA officials and information reported from the HSC,
                   90 percent of over 300 actions in the Plan have been completed. The
                   remaining actions are in progress and are expected to be completed by the
                   18-month mark.




USDA/OIG-Audit 33701-01-Hy                                                                   Page iii
Recommendations
In Brief            In order to ensure USDA’s readiness to respond to a pandemic, USDA
                    should establish a control mechanism to accurately report information on
                    assigned tasks, provide HSC with corrected information for the inaccurately
                    reported tasks, and monitor support tasks and coordinate with HSC. In
                    addition, USDA needs to develop plans for testing the tasks that have not
                    been tested and formalize procedures to update its notification website.
                    Further, APHIS needs to immediately assign responsibility to finalize
                    corrective actions set forth in our prior report.


Agency Response     APHIS agreed with the recommendations in the report. We have incorporated
                    APHIS’ response into the Findings and Recommendation section of the
                    report. The response to the draft report, dated December 20, 2007, is included
                    as Exhibit D (we did not include the attachment APHIS included with its
                    response because it contained phone numbers and email addresses).

OIG Position        Based on APHIS’ response, we were able to reach management decision on
                    8 of the report’s 10 recommendations. We were not able to reach
                    management decision on recommendations 4 and 10. APHIS will need to
                    provide the additional information outlined in the OIG position section of the
                    report, in order to reach management decision on these recommendations.




USDA/OIG-Audit 33701-01-Hy                                                                Page iv
Abbreviations Used in This Report

APHIS               Animal and Plant Health Inspection Service
ARS                 Agricultural Research Service
DHS                 Department of Homeland Security
DOI                 Department of Interior
END                 Exotic Newcastle Disease
FAD                 Foreign Animal Disease
FAS                 Foreign Agricultural Service
FSA                 Farm Service Agency
FSIS                Food Safety and Inspection Service
GAO                 Government Accountability Office
HPAI                Highly Pathogenic Avian Influenza
HHS                 Department of Health and Human Services
HSC                 Homeland Security Council
LBM                 Live-bird Market
LPAI                Low Pathogenic Avian Influenza
NVS                 National Veterinary Stockpile
OC                  Office of Communications
OCFO                Office of the Chief Financial Officer
OIG                 Office of Inspector General
Plan                Homeland Security Council’s Implementation Plan for the National Strategy
                    for Pandemic Influenza
PPE                 Personal Protective Equipment
Secretary           Secretary of Agriculture
Strategy            National Strategy for Pandemic Influenza
Under Secretary     Under Secretary for Marketing and Regulatory Programs
U.S.                Unites States
USDA                U.S. Department of Agriculture
VS                  Veterinary Services
WHO                 World Health Organization




USDA/OIG-Audit 33701-01-Hy                                                             Page v
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1            Management Controls to Ensure Readiness............................................................ 4

        Finding 1             USDA Did Not Implement Adequate Management Controls................................. 5
                                  Recommendation 1 .......................................................................................... 8
                                  Recommendation 2 .......................................................................................... 8
                                  Recommendation 3 .......................................................................................... 8
                                  Recommendation 4 .......................................................................................... 9
        Finding 2             Response Procedures Need to be Tested................................................................. 9
                                  Recommendation 5 ........................................................................................ 14
                                  Recommendation 6 ........................................................................................ 15
                                  Recommendation 7 ........................................................................................ 15
                                  Recommendation 8 ........................................................................................ 16
                                  Recommendation 9 ........................................................................................ 16

    Section 2            Implementation of Prior Recommendations ......................................................... 18

        Finding 3…….. ............................................................................................................................. 18
                           Recommendation 10 ...................................................................................... 19

Scope and Methodology........................................................................................................................ 20

Exhibit B – GAO Tasks ........................................................................................................................ 24
Exhibit C – Followup on OIG’s 8 Prior Recommendations ............................................................. 26
Exhibit D – Agency Response .............................................................................................................. 27




USDA/OIG-Audit 33701-01-Hy                                                                                                                 Page vi
Background and Objectives

Background                            The previous three pandemics of the influenza virus killed approximately
                                      43 million people worldwide. The current pandemic threat stems from an
                                      unprecedented outbreak of avian influenza in Asia and Europe, caused by the
                                      H5N1 5 strain of the influenza A virus. 6 There are two potential routes for
                                      human infection. The first route is direct infection, whereby the virus passes
                                      from poultry to humans. Since 2003, highly pathogenic avian influenza
                                      (HPAI) has infected 328 people in 12 countries, resulting in 200 deaths. 7 A
                                      second route, of even greater concern, occurs if the virus changes (mutates)
                                      into a form that is highly infectious to humans and spreads easily from human
                                      to human. Currently, the virus has not mutated into this form.

                                      In response to the growing threat, the President issued the National Strategy
                                      for Pandemic Influenza (Strategy) on November 1, 2005. The Strategy
                                      outlined the following pillars to address the threat of a pandemic influenza:
                                      (1) preparedness and communication; (2) surveillance and detection; and
                                      (3) reponse and containment. The Strategy assigns responsibility across all
                                      levels of government and all segments of the public. The Strategy identified
                                      four departments that would lead this assignment:

                                      •    Department of Homeland Security (DHS), for the overall domestic
                                           incident management and Federal coordination;

                                      •    Department of Agriculture (USDA) for veterinary response; 8

                                      •    Department of Health and Human Services for medical response; and

                                      •    Department of State for international activities.

                                      Each Federal agency is responsible for coordinating all efforts within its
                                      authorized mission area and developing plans to implement this Strategy.

                                      In October 2001, the Homeland Security Presidential Directive-1 was issued
                                      to communicate Presidential decisions about homeland security policies in the
                                      United States. The Homeland Security Council (HSC) is responsible for
                                      advising and assisting the President with respect to all aspects of homeland


5
    According to World Health Organization (WHO), only viruses of the H5 and H7 subtypes are known to cause HPAI. However, not all H5 and
    H7 viruses are highly pathogenic.
6
    According to WHO, influenza viruses are grouped into three types, designated A, B, and C. Influenza A and B viruses are of concern for human health.
    Only influenza A viruses can cause pandemics.
7
    WHO data as of September 10, 2007.
8
    The Animal Health Protection Act authorizes the Secretary to prevent, protect, control, and eradicate diseases and pests of animals such as animal
    influenza in order to protect animal health, the health and welfare of people, and the Nation’s economic interests.
USDA/OIG-Audit 33701-01-Hy                                                                                                                   Page 1
                                      security and coordinating activities among executive departments and
                                      agencies.

                                      To implement the Strategy, the HSC released the Implementation Plan for the
                                      National Strategy for Pandemic Influenza (Plan) on May 3, 2006. It provides
                                      the principles and objectives for pandemic preparedness. The Plan further
                                      translates the Strategy into more than 300 critical tasks along with measures
                                      of performance to ensure that the Federal Government, along with State and
                                      local partners, continues to prepare for an outbreak and a possible human
                                      influenza pandemic. These tasks were to be implemented by specific dates
                                      ranging from August 1, 2006 through May 1, 2009.

                                      The Secretary of Agriculture (Secretary) is responsible for coordinating the
                                      veterinary response to a domestic animal outbreak of a pandemic virus and
                                      ongoing surveillance in domestic animals and animal products as outlined in
                                      the Plan. HSC assigned 98 tasks 9 (57 lead tasks and 41 support tasks) in the
                                      Plan to USDA. The lead agencies are responsible for coordinating with the
                                      supporting agencies and implementing the tasks according to the performance
                                      measures specific to each lead task. Support agencies are not responsible for
                                      ensuring that the support tasks are completed but are to coordinate and
                                      collaborate with the lead agency.

                                      The Secretary assigned the Under Secretary for Marketing and Regulatory
                                      Programs (Under Secretary) the responsibility of ensuring that all 98 tasks
                                      were effectively performed. The Under Secretary appointed a facilitator to
                                      compile and convey the status of USDA’s progress to the HSC. The Animal
                                      Plant and Health Inspection Service (APHIS) is the primary USDA agency
                                      that protects the Nation’s animal health from disease; therefore, it was
                                      assigned the majority of the tasks. Other USDA agencies involved in this
                                      effort included:

                                      •    Foreign Agricultural Service (FAS),

                                      •    Agricultural Research Service (ARS),

                                      •    Food Safety and Inspection Service (FSIS), and

                                      •    Office of Communications (OC).

                                      As the agency officials completed and summarized their work, they explained
                                      how their efforts addressed the performance measures defined in the Plan for
                                      each task. This information is captured in QuickPlace, a central, web-based
                                      repository that is accessible by authorized users. USDA’s facilitator then

9
    Throughout, we refer to the Plan’s requirements for USDA as lead and support agency as tasks rather than actions in order to avoid confusion between
    what APHIS was asked to do (task) and what APHIS did (action).
USDA/OIG-Audit 33701-01-Hy                                                                                                                   Page 2
                                    forwarded updates to HSC. HSC reviewed the information to determine if the
                                    tasks were timely completed and if the tasks addressed the performance
                                    measures.

                                    In June 2006, we issued an audit report on the Oversight of Avian Influenza
                                    (Audit Report No. 33099-11-Hy). The objective of the prior audit was to
                                    assess the adequacy of APHIS’ activities to identify the occurrence of avian
                                    influenza and limit its impact on public health and the poultry industry. In this
                                    report, we concluded that APHIS had made commendable progress in
                                    developing plans and establishing the networks necessary to prepare for and
                                    respond to outbreaks of avian influenza.

                                    We recommended that APHIS develop and implement a comprehensive avian
                                    influenza surveillance plan and perform and document an analysis that
                                    identifies any gaps in sampling surveillance and assesses risk as a basis for
                                    determining the need for additional sampling. We also recommended that
                                    APHIS revise the Response Plan to include detailed instructions for
                                    (1) handling HPAI occurrences in live-bird market (LBM) systems and other
                                    “off-farm” environments, (2) obtaining and administering vaccines and anti-
                                    virals to people in the event of a culling operation, and (3) coordinating with
                                    the Farm Service Agency (FSA) and the States to develop and formalize
                                    producer notification and action procedures if an outbreak of avian influenza
                                    occurs.

                                    During the course of this audit, we coordinated with the Government
                                    Accountability Office (GAO) because it was also conducting a review related
                                    to the Plan. GAO notified us that it would be conducting several audits in this
                                    area involving USDA. GAO further specified it would be assessing USDA’s
                                    efforts in addressing 12 of the 98 tasks assigned to USDA (see Exhibit B).
                                    Therefore, we eliminated these tasks from the scope of our review to avoid
                                    duplication. In June 2007, GAO reported that USDA has taken important
                                    steps to prepare for outbreaks, but better planning could improve response.
                                    GAO recommended that USDA and DHS develop a memorandum of
                                    understanding to clarify their roles during certain emergencies, and that
                                    USDA take several steps to improve its planning and that of the States. 10

Objectives                          Our overall objective was to examine whether APHIS had adequately
                                    implemented the actions (lead and support tasks) required by the Plan.
                                    Specifically, we determined whether APHIS took the necessary steps to fulfill
                                    its roles and responsibilities and implemented these tasks within the
                                    prescribed timeframe. We also followed up on corrective actions to
                                    recommendations in our previous audit, Oversight of Avian Influenza (Audit
                                    Report No. 33099-11-Hy), issued in June 2006.

10
     Avian Influenza – USDA Has Taken Important Steps to Prepare for Outbreaks but Better Planning Could Improve Response (GAO-07-652).
USDA/OIG-Audit 33701-01-Hy                                                                                                                Page 3
Findings and Recommendations
Section 1   Management Controls to Ensure Readiness

                    The Strategy outlined how Federal agencies should prepare for and respond to
                    a potential pandemic. USDA is responsible for coordinating all efforts within
                    its authorized mission and developing plans to implement this Strategy for
                    veterinary response issues. The Plan identified the critical steps that must be
                    taken immediately and over the coming months and years to address the
                    threat of an influenza pandemic.

                    USDA developed or revised policies and procedures to detect, contain, and
                    eradicate HPAI in carrying out its part of the Plan. For example, APHIS
                    helped to develop the interagency response playbook that detailed
                    step-by-step actions that Federal agencies should take in response to an
                    outbreak. In addition, APHIS revised its Summary of the HPAI National
                    Response Plan to help Federal, State, local, and private entities respond
                    rapidly should an outbreak occur in the United States. APHIS revised its
                    guidance on protecting backyard flocks and preventing poultry infection.
                    According to the HSC, USDA met the measures of performance for all tasks
                    completed through May 2007, based on the information USDA reported.

                    We reviewed 55 tasks that were scheduled to be completed by
                    February 2007. This included 26 tasks led by USDA (see Exhibit A) and
                    29 tasks in which USDA had a supporting role. The information USDA
                    reported to HSC on these tasks in February 2007, was the same as the
                    information reported in May 2007.

                    USDA took action on each lead task we reviewed; however, it did not
                    institute adequate management controls to ensure readiness in the event of an
                    outbreak. Specifically, USDA reported progress on lead tasks to HSC without
                    verifying that the descriptions were accurate and assigned support tasks
                    without maintaining oversight. USDA had not instituted an adequate tracking
                    system for the 29 support tasks. In addition, USDA had no plans to test 14 of
                    the 26 lead tasks (see Exhibit A) to verify that they worked as designed
                    because, according to USDA officials, the Plan did not require the tasks to be
                    tested. As a result, APHIS has reduced assurance of its readiness to respond
                    to an outbreak.

                    An outbreak of HPAI could have serious economic and health impacts. The
                    United States is one of the world’s largest producers of eggs and poultry
                    meat, valued at $4.39 and $22.45 billion, respectively. The U. S. exports
                    approximately 10 percent of the poultry meat that is produced. Foreign
                    trading partners could impose a ban on U.S. exports of poultry products if an

USDA/OIG-Audit 33701-01-Hy                                                                 Page 4
                                       outbreak occurred. In addition, an outbreak increases the opportunity for a
                                       disease to spread and possibly mutate into a pandemic.

Finding 1                              USDA Did Not Implement Adequate Management Controls

                                       USDA needs to verify the accuracy of the responses to the HSC. USDA did
                                       not accurately report the progress for two of the major functions within
                                       APHIS to the HSC. For example, APHIS inaccurately reported how it was
                                       able to identify high risk importers and withdraw their Federally-issued
                                       permits for importing live birds. In addition, USDA did not assign 4 of
                                       29 support tasks to the correct official who could ensure the tasks were
                                       properly completed or had the authority to commit resources. This occurred
                                       because USDA did not implement adequate management controls, such as
                                       providing a second-party review of lead tasks or monitoring responsiveness to
                                       the support tasks. As a result, there is reduced assurance that USDA can
                                       respond at the time of an outbreak, to the extent reported, to the HSC.

                                       Inaccurately Reported Progress on Lead Tasks

                                       •     Animal Importation Permits

                                             Task 5.2.5.2 of the Plan directed USDA to review the process for
                                             withdrawing permits for the importation of live avian species or products
                                             to identify ways to increase the timeliness, improve detection of high-risk
                                             importers, and increase outreach to importers and their distributors. The
                                             measures of performance for this task required USDA to revise the
                                             process for withdrawing permits of high-risk importers. USDA assigned
                                             this task to APHIS.

                                              The permit process serves as one of the Nation’s first lines of defense
                                              against animal diseases because permits establish control over the
                                              importation and movement of animals. Withdrawing permits in a timely
                                              manner is also vital for preventing diseases from entering the United
                                              States.

                                              APHIS’ procedures require that all imported birds be accompanied by a
                                              permit. These permits allow the importation of live poultry, 11
                                              commercial birds, 12 and pet birds. During 2006, APHIS issued 287 live-
                                              bird permits which allowed 63,589 live-birds into the Country. The
                                              permit process allows multiple live-birds to enter under a single approved
                                              permit.


11
     USDA defines poultry to include chickens, doves, ducks, geese, grouse, guinea fowl, partridges, pea fowl, pheasants, pigeons, quail, swans, and
     turkeys (including eggs for hatching).
12
     USDA defines commercial birds as birds that are imported for resale, breeding, public display, or any other purpose, except pet birds, zoological birds,
     research birds, or performing or theatrical birds.
USDA/OIG-Audit 33701-01-Hy                                                                                                                        Page 5
                                            APHIS is currently using a manual system to monitor the live-bird
                                            permits. However, APHIS reported to HSC that it was using the ePermit
                                            system, a web-based system that allows APHIS to rapidly issue, track,
                                            and verify the validity of import permits, thus reducing data-entry,
                                            processing, delivery time, and expense. An APHIS official mistakenly
                                            reported that the agency was using the ePermit system for tracking
                                            live-bird permits as of July 2006, when according to the same Official,
                                            the expected implementation date was July 2007. 13 This occurred
                                            because APHIS did not conduct a second-party review to verify the
                                            information before forwarding it to the HSC.

                                            The inaccurately reported implementation date is significant because
                                            live-bird permits cannot be withdrawn electronically as reported to HSC.
                                            According to an APHIS official, permits can be withdrawn timely with
                                            the manual system; however, this has not been tested.

                                      •    Stockpiling Emergency Equipment

                                            Task 7.1.4.2 of the Plan charged USDA with stockpiling emergency
                                            response protective equipment (e.g., non-permeable protection suit,
                                            decontaminant, boot covers, gloves, first aid kit, 20 gallon sprayer, soap,
                                            Gatorade, and a pressurized air-flow device) to be used in the event of
                                            responding to an actual outbreak. This would ensure that the materials
                                            were pre-positioned for rapid delivery to infected areas. USDA assigned
                                            this task to APHIS.

                                            These stockpiles are the Nation’s repository of vaccines, personal
                                            protective equipment, and other critical veterinary products to help
                                            augment State and local resources to contain and eradicate an outbreak
                                            that could potentially devastate American agriculture. To fulfill this task,
                                            APHIS reported in February 2007 that “it holds in strategic locations
                                            push packs 14 containing enough personal protective equipment and other
                                            materials to protect workers.” An APHIS official informed us, though,
                                            that emergency equipment was stockpiled at one location, not multiple
                                            locations, as reported to the HSC. This occurred because APHIS did not
                                            conduct a second party review of the information reported. As of
                                            May 2007, APHIS had not finalized the procurement activities to acquire
                                            additional response material and storage locations. As of
                                            October 2007, APHIS had not updated us on whether this procurement
                                            was finalized. Although pre-positioning the materials at a single location
                                            addressed the task, APHIS’ reported progress did not match its response.


13
     In an interview in May 2007, APHIS informed us that it had encountered software configuration issues between the ePermit system and the portal used
     to access the system. The July 2007 date was not met, and as of October 2007, APHIS had not provided us with an updated implementation date.
     According to APHIS’ response to this report, the ePermit System was available for internal APHIS users as of April 2007 for animals.
14
     Push packs are ready to ship containers stocked with a variety of necessary personal protective equipment and veterinary supplies.
USDA/OIG-Audit 33701-01-Hy                                                                                                                   Page 6
                    Misassigned Support Tasks

                    Of the 29 support tasks we reviewed, 4 were assigned to an official who had
                    not been informed that he was responsible for them. USDA needs to ensure
                    that the support tasks are properly assigned and monitored in order to be able
                    to play its part fully when called upon by the lead agency. USDA did not
                    develop a tracking system to maintain oversight of the supporting tasks.
                    These tasks are as follows:

                    •   Implement response or screening protocols at domestic airports and other
                        transport modes based on disease characteristics and availability of rapid
                        detection methods and equipment (Task 5.3.1.6). According to APHIS
                        officials, this task was inappropriately assigned to USDA because USDA
                        does not have the authority to regulate interstate transportation of
                        agricultural products. As of May 2007, this issue had not been resolved.
                        USDA needs to coordinate with the HSC to reassign the task identified to
                        be outside of USDA’s authority.

                    •   Implement screening protocols at U.S. ports of entry based on disease
                        characteristics and availability of rapid detection methods and equipment
                        (Task 5.3.1.5). As a result of our audit, this task was reassigned to the
                        appropriate APHIS official.

                    •   Implement and enforce cargo restrictions for export or import of
                        potentially contaminated cargo, including embargo of live birds, and
                        notify international partners and shippers (Task 5.3.2.3). As a result of
                        our audit, this task was reassigned to the appropriate APHIS official.

                    •   Consult with the domestic and international travel industry (e.g., carriers,
                        hospitality industry, and travel agents) and freight transportation partners
                        to discuss travel and border options (Task 5.3.4.4). As a result of our
                        audit, this task was reassigned to the appropriate APHIS official.

                    Although only 2 of 26 lead tasks were inaccurately reported to the HSC,
                    USDA lacks a control mechanism to verify that it reports its progress
                    accurately for any of the tasks reported on to date and future tasks. In
                    addition, USDA did not ensure that support tasks were fully addressed and
                    communicated to responsible officials. Given the potential economic and
                    health impact of an HPAI outbreak, USDA should not risk discovering that
                    its response procedures have been inaccurately reported or unassigned.

                    Accordingly, USDA should institute a management control mechanism
                    capable of ensuring that progress is reported accurately to the HSC. Also, a
                    tracking system should be developed to monitor supporting tasks, and tasks
                    identified to be outside of USDA’s authority should be coordinated with
                    HSC.
USDA/OIG-Audit 33701-01-Hy                                                                  Page 7
Recommendation 1
                    Establish a control mechanism to ensure the accuracy of information reported
                    to HSC on assigned tasks.

                    Agency Response.

                    APHIS reported to the HSC the status of 57 tasks for which it is the lead agency
                    seven times over a 12 month period, resulting in 97 percent accuracy using the
                    control mechanisms questioned. All future submissions will require first line
                    supervisor clearance prior to submission.

                    OIG Position.

                    We accept APHIS’ management decision.

Recommendation 2
                    Provide the HSC with corrected information for the inaccurately reported
                    tasks.

                    Agency Response.

                    APHIS’s response clarified its use of the e-Permitting System for review and
                    cancellation of “high risk” permits to the HSC. With the implementation of
                    USDA’s new e-Permitting system, APHIS’ efficiency in withdrawing permits
                    has increased. The system is available to Customs and Border Patrol, and
                    APHIS’ Veterinary Services (VS) program area users as of July 2006 for animal
                    products and available for internal users (VS) as of April 2007 for animals.

                    APHIS has corrected a planned future state of being rather than the current
                    situation on a task status: with respect to Stockpiling of Emergency Equipment,
                    APHIS corrected the record that, as of February 2007, there were multiple
                    locations in which emergency veterinary supplies were stored, but only one
                    location where Personal Protective Equipment (PPE) was warehoused for
                    delivery to an incident site within 24 hours. The final response to the HSC
                    corrects locations to location. A contract for additional PPE was awarded in
                    June 2007. Currently, the National Veterinary Stockpile (NVS) also holds, in a
                    separate location from the PPE, antivirals to protect 3,000 responders for six
                    weeks.

                    OIG Position.

                    We accept APHIS’ management decision.
Recommendation 3
                    Develop a tracking system or expand the existing one to monitor support
                    tasks.

USDA/OIG-Audit 33701-01-Hy                                                                  Page 8
                       Agency Response.

                       APHIS understands that the role of a support agency is to collaborate with the
                       lead agency in an appropriate manner. As such, APHIS believes the current
                       tracking system is sufficient to manage support activities appropriately assigned
                       to APHIS. However, APHIS has proposed to the HSC and they have accepted
                       to use Quick Place to track all future action items for all Departments. This will
                       allow them to monitor their lead action items and the actions they are
                       responsible for as a support agency. The HSC will make this a voluntary system
                       initially. APHIS will request completed action items for which they are support
                       to ensure USDA’s interests are considered appropriately.

                       OIG Position.

                       We accept APHIS’ management decision.

Recommendation 4
                       Coordinate with the HSC to reassign the task identified to be outside of
                       USDA’s authority (i.e., Task 5.3.1.6).

                       Agency Response.

                       APHIS agrees that the task referenced requires resolution. In the response,
                       APHIS stated it would collaborate with DHS, the lead agency, to determine
                       scope and suggest any reassignments to the HSC. This action item might require
                       USDA involvement on trucking, rail, passenger car, or other kind of “response
                       of screening protocols” that might be needed domestically. It could apply to any
                       animals or animal products that might spread the virus domestically and for
                       which USDA might need to help determine/write/implement a response or
                       screening protocol.

                       OIG Position.

                       Although we agree with APHIS’ proposed corrective action for management
                       decision, APHIS needs to provide a date when the collaboration with DHS will
                       take place on the details regarding the assignment of task 5.3.1.6.


Finding 2              Response Procedures Need to be Tested

                    USDA reported that it had completed all 26 lead tasks that were due through
                    February 2007, because it had implemented and/or revised procedures, and
                    coordinated with the appropriate Federal agencies as required by the Plan.
                    However, the processes and procedures that related to 14 of the 26 tasks had
                    not been tested to ensure that they addressed the threat of an influenza
                    pandemic because the Plan did not specifically require testing. We found that
USDA/OIG-Audit 33701-01-Hy                                                                Page 9
                                     APHIS did not update its website to notify stakeholders within 24 hours of a
                                     confirmed outbreak, highlighting the potential gap between reported
                                     accomplishments and actual achievements. As a result, USDA lacks
                                     assurance that policies, procedures, and plans developed or revised in
                                     response to the Plan will work as designed. Thus, USDA could not ensure the
                                     effectiveness of procedures in the event of an outbreak.

                                     APHIS performed limited testing on 4 of the 18 testable lead tasks; 15
                                     however, the testing was not done as part of a systematic process that verifies
                                     the effectiveness of completed tasks. Specifically, APHIS conducted tabletop
                                     exercises with two States that also involved local government and private
                                     organizations. 16 APHIS initiated the tests before the Plan was released in
                                     May 2006. In part, the tabletop exercises addressed 3 of the 18 testable lead
                                     tasks that involve APHIS’ procedures to produce, deploy, and distribute
                                     emergency response supplies such as vaccine and protective equipment.
                                     However, since the exercises are group discussions that identify the needs and
                                     possible responses of participants, they do not test the actual procedures used
                                     during a simulated outbreak.

                                     For the fourth task, APHIS tested laboratories’ capabilities to handle the
                                     increase or surge in samples (e.g., water, throat, etc.) that will follow an
                                     outbreak. 17 Officials stated the agency has no plans to test the remaining
                                     14 lead tasks because the Plan did not require that they be tested. However,
                                     we found a breakdown in APHIS’ notification and response procedures,
                                     which demonstrates the need to verify and test the remaining procedures to
                                     ensure their effectiveness. Specifically, we identified that the notification
                                     website was not timely updated, response activity procedures were not
                                     updated, and other processes and procedures have not been tested according
                                     to APHIS guidelines. In addition, APHIS has no plans to test the remaining
                                     31 tasks scheduled for completion after February 2007.

                                     Website Notification

                                     Through the Plan, HSC required USDA to review existing transportation and
                                     border notification protocols to ensure that timely information is shared in
                                     case of quarantinable disease. USDA reported, as part of its completion of
                                     Task 5.2.1.1, that existing procedures would report a foreign outbreak within
                                     24 hours—in part, by updating APHIS’ notification website. In
                                     February 2007, such an outbreak occurred in England. 18 APHIS did not
                                     update its website for over 48 hours after confirmation of the outbreak
                                     because its notification procedures did not specify contacting the information

15
     There were 26 total lead tasks but we determined that 8 were not testable. For example, many of the steps required APHIS to coordinate with
     international organizations such as the United Nations Food and Agricultural Organization. APHIS provided us documentation supporting that it had
     met these requirements (see Exhibit A).
16
     A tabletop exercise is a group discussion guided by a scenario-based, simulated disaster.
17
     Task 7.1.2.2 (see Exhibit A).
18
     The outbreak occurred on two poultry farms in Suffolk and Norfolk counties on February 3, 2007.
USDA/OIG-Audit 33701-01-Hy                                                                                                                Page 10
                                     technology staff to post information on the website. Early warning of an
                                     outbreak in other countries is critical to APHIS to allow it time to implement
                                     the screening protocols at United States. border points (land, air, and sea).
                                     APHIS officials stated that they use other means of communication to notify
                                     the necessary individuals or groups at the time the outbreak is declared.
                                     However, these means are reliant on having correct and current contacts and
                                     addresses.

                                     Within APHIS, the National Center for Import and Export (NCIE) is
                                     responsible for notifying field offices of an outbreak through alerts. Once a
                                     country declares an outbreak, NCIE must report the information on APHIS’
                                     notification website. A delay could allow agents to let infected birds into the
                                     United States to contaminate domestic flocks and the food supply.

                                     APHIS officials agreed that the notification website was not updated
                                     according to the protocol reported to the HSC. APHIS stated it would resolve
                                     the problem by formalizing the website procedures. However, APHIS did not
                                     provide a definite timeframe for doing so.

                                     Breakdown in Response Procedures

                                     APHIS contained and eradicated an outbreak of Exotic Newcastle Disease
                                     (END), a highly infectious foreign animal disease (FAD) in birds, in
                                     2002-2003. However, a study funded by the agency, the “Analysis of
                                     Response Operations to Eradicate END in 2002-2003: Response
                                     Management,” issued in December 2004, identified management response
                                     breakdowns. For example, APHIS had procedures in place to address
                                     management response across multiple States and regions; however, the study
                                     questioned APHIS’ ability to effectively respond to a widespread outbreak.
                                     Some of the key recommendations were as follows:

                                     •     USDA should carefully consider where to assign critical personnel with
                                           specialized experience in the context of large FAD outbreak scenarios.

                                     •     USDA should continue to train essential personnel in Incident Command
                                           System 19 procedures.

                                     •     USDA should examine State-Federal coordination issues in the context of
                                           FAD scenarios or exercises to determine whether incident command
                                           structures can accommodate larger, multi-state outbreaks.

                                     •     USDA should refine its written delegation of authority and response plans
                                           to facilitate a more rapid deployment of personnel, clarify financial

19
     A standardized onsite emergency management system made up of facilities, equipment, personnel, procedures, and communications designed to aid in
     the management of resources during incidents.
USDA/OIG-Audit 33701-01-Hy                                                                                                               Page 11
                        responsibility and oversight for eradication activities, and be more
                        specific about decisions that can be made independently versus those that
                        require an agency administrator’s approval.

                    Although APHIS spent $471,000 to fund the study, the agency has neither
                    incorporated its recommendations nor tracked responses to them. According
                    to APHIS officials, competing demands and priorities have prevented APHIS
                    from implementing these recommendations. Although specific outbreak
                    situations vary, APHIS’ National Animal Health Management System
                    provides the response requirements to detect, control, and eradicate any
                    highly contagious FAD, including HPAI. Therefore, the recommendations
                    present APHIS with an opportunity to strengthen its END and HPAI response
                    procedures.

                    Processes and Procedures Warranting Testing

                    We found 14 of the 26 lead tasks, due as of February 2007, had not been
                    tested. Also, USDA did not test newly developed procedures or assess and
                    evaluate the revised procedures to ensure they worked as designed. The
                    14 untested lead tasks constitute an important part of the Nation’s pandemic
                    influenza defense. Of these tasks, 10 related to APHIS procedures; 2 were
                    associated with OC; and 1 each related to ARS and FSIS procedures. For
                    example, the untested APHIS tasks include, but are not limited to, the
                    following:

                    •   USDA, in coordination with DHS, shall review the protocols, procedures,
                        and capacity at animal quarantine centers to meet the requirements
                        outlined in Part 93 of Title 9 of the Code of Federal Regulations, within
                        4 months (Task 5.2.5.4).

                    •   USDA, in coordination with DHS, the Department of Justice, and the
                        Department of Interior (DOI), shall enhance risk management and
                        anti-smuggling activities to prevent the unlawful entry of prohibited
                        animals, animal products, wildlife, and agricultural commodities that may
                        harbor influenza viruses with pandemic potential, and expand efforts to
                        investigate illegal commodities, block illegal importers, and increase
                        scrutiny of shipments from known offenders, within 9 months (Task
                        5.2.5.5).

                    •   USDA shall coordinate with DHS and other Federal, State, local, and
                        tribal officials, animal industry, and other affected stakeholders during an
                        outbreak in commercial or other domestic birds and animals to apply and
                        enforce appropriate movement controls on animals and animal products to
                        limit or prevent spread of influenza virus (Task 7.3.1.2).


USDA/OIG-Audit 33701-01-Hy                                                                 Page 12
                                  •    USDA, in coordination with DHS, DOI, and Health and Human Services,
                                       shall review the process for withdrawing permits for importation of live
                                       avian species or products and identify ways to increase timeliness,
                                       improve detection of high-risk importers, and increase outreach to
                                       importers and their distributors, within 6 months (Task 5.2.5.2).

                                  APHIS’ guidelines 20 require participation in realistic exercises that focus on
                                  practical activities that place the participants in a simulated situation requiring
                                  them to function in the capacity that would be expected of them in a real
                                  event. The purpose is to promote preparedness by testing policies and plans
                                  and training personnel. APHIS guidelines contain a number of training
                                  exercises to test their policies and procedures in real live situations such as:

                                        •    Tabletop exercises - a facilitated analysis of an emergency situation
                                             in an informal, stress-free environment.

                                        •    Functional exercise - a fully simulated interactive exercise that tests
                                             the capability of an organization to respond to a simulated event.

                                        •    Full-scale exercise - simulates a real event as closely as possible.

                                  The Plan did not require testing; however, USDA can strengthen its policies
                                  and procedures and heighten its assurance of USDA’s readiness by using the
                                  exercises outlined in APHIS’ guidelines. The exercises will also emphasize
                                  the need for participants to develop and maintain strong collaborative
                                  relationships with other Federal agencies and counterparts in the emergency
                                  management community. As part of this testing, USDA should determine the
                                  need to test the tasks scheduled for completion after February 2007.

                                  USDA’s Communication Strategy

                                  USDA has not evaluated the effectiveness of its public communication
                                  strategy, and information may not reach as wide an audience as intended
                                  during an outbreak. USDA has several lead tasks that relate to informing the
                                  public about issues, activities, and its responsibilities regarding HPAI through
                                  various types of media (e.g., internet, fliers, television, etc.). The OC has
                                  developed and distributed pre-scripted risk communication messages about
                                  HPAI, and according to the HSC, met the measures of performance for these
                                  tasks completed through May 2007.

                                  USDA has produced certain educational brochures in English, Spanish, and
                                  Vietnamese. In addition, USDA’s Avian Influenza website is currently
                                  available in English and Spanish. However, USDA still risks missing large
                                  segments of the affected population. Depending on the outbreak scenario,


20
     APHIS’ National Animal Health Emergency Management System.
USDA/OIG-Audit 33701-01-Hy                                                                                   Page 13
                    USDA may need to release its communications in other languages, such as
                    Cantonese, Arabic, and Hindi.

                    Given the potential economic and health impact of an outbreak, USDA
                    cannot risk discovering that its processes and procedures are not effectively
                    implemented or communicated during an outbreak. By testing to ensure that
                    its reported accomplishments match actual achievements, USDA can heighten
                    its readiness to respond in the event of an outbreak.

Recommendation 5
                    Test actual procedures during a simulated outbreak to supplement tabletop
                    exercises.

                    Agency Response.

                    APHIS agrees that testing is essential to assess readiness. APHIS has previously
                    offered to provide information that demonstrates their testing and preparedness
                    activities. Actual responses allow APHIS to refine procedures as well as or
                    better than, test scenarios do. In addition, APHIS has tested certain functions
                    that are not part of their routine work, such as:

                    •   Actual incidents of low pathogenic avian influenza (LPAI) test
                        communications, logistics, operations, planning, and finance and
                        administrative capabilities. LPAI incidents that require movement control
                        and depopulation most closely resemble the response that would be carried
                        out in the case of an HPAI outbreak. In fiscal year 2007 APHIS personnel
                        responded to four such incidents in commercial operations in West Virginia,
                        Virginia, and South Dakota (two incidents), and one in a live-bird market
                        production unit in New York.

                    •   NVS was notified to deploy personal protective equipment and disinfectant
                        needed for a State response to the West Virginia outbreak referenced
                        immediately above. The NVS deployed the requested supplies of personal
                        protective equipment and disinfectants within 24 hours of notification. The
                        majority of items were in stock, but one emergency purchase was made.
                        Thereafter, the NVS coordinated the simultaneous arrival of shipments
                        from Wisconsin and Missouri into West Virginia. NVS also deployed
                        contractors to conduct depopulation, decontamination, and disposal
                        functions in Virginia and New York incidents.

                    •   The NVS conducted a physical deployment exercise in Fall 2007 in which
                        it shipped various products types in Iowa. Push packs of PPE and other
                        materials were delivered via semi-truck from one location, and vaccine and
                        antiviral delivery was simulated from two other locations to test cold-chain
                        delivery. The State successfully tested its ability to request, receive, store,
                        stage, manage, process, and deliver supplier before returning the materials
USDA/OIG-Audit 33701-01-Hy                                                                    Page 14
                        to NVS for use in other exercises. Additional exercises are planned with
                        California (March 2008) and South Carolina (December 2008).

                    OIG Position.

                    We accept APHIS’ management decision. APHIS officials were given the
                    opportunity to provide information that demonstrates their testing and
                    preparedness activities throughout the conduct of the audit. APHIS did not
                    provide us with evidence of the tests of actual procedures during a simulated
                    HPAI outbreak that would supplement tabletop exercises.

Recommendation 6
                    Formalize procedures to update APHIS’ notification website within 24 hours
                    of a confirmed outbreak.

                    Agency Response.

                    At the time an outbreak occurs, APHIS’ VS will notify, first and directly, other
                    APHIS components, and DHS, Customs and Border Patrol to ensure that
                    screening protocols at borders can be implemented timely. The process for
                    updating the website has been formalized, as described in the revised Standard
                    Operating Procedure, titled “National Center for Import and Export/Import Alert
                    Notification,” dated December 6, 2007. APHIS provided a copy of this
                    procedure.

                    OIG Position.

                    We accept APHIS’ management decision.

Recommendation 7
                    Incorporate the recommendations from the “Analysis of Response Operations
                    to Eradicate Exotic Newcastle Disease in 2002-2003: Response
                    Management” into APHIS’ HPAI response plan.

                    Agency Response.

                    APHIS continues to assess its state of readiness and is devoting considerable
                    effort toward the recommendations described in the referenced report. The
                    agency-wide Emergency Management Leadership Council leads the planning of
                    APHIS’ emergency response with respect to resources and personnel. The status
                    of APHIS’ activities are tracked and internal reports generated at regular
                    intervals. At present, the Council is overseeing:

                    •   The review of Mobilization Guide, drafted using Forest Service’s style;

                    •   The cataloguing of personnel capabilities and assigning availability of
USDA/OIG-Audit 33701-01-Hy                                                                 Page 15
                        dispatch into the Resource Ordering and Status System;

                    •   The training of executives and staff officers in Incident Command System
                        (ICS) procedures; and

                    •   The development of a formal, auditable certification process for all Animal
                        Health, Plant Health, ICS, Advisory/Support and All Hazard positions.

                    APHIS’ HPAI Response Plan is in the process of being updated to include
                    greater detail about the response process and roles of those involved. In
                    addition, National Animal Health Emergency Management System guidelines
                    are currently being revised. APHIS anticipates completion of these documents
                    by October 31, 2008.

                    OIG Position.

                    We accept APHIS’ management decision.

Recommendation 8
                    Develop a timetable for testing the 14 tasks that have not been tested. Also,
                    perform an assessment to determine the need to test the remaining 31 tasks
                    scheduled for completion after February 2007.

                    Agency Response.

                    APHIS agrees with a number of recommendations in the report, particularly the
                    necessity of ensuring response capabilities for those the Agency is assigned a
                    lead role. APHIS’ response provided information on how 11 of the 14 tasks are
                    being tested. For actions 1, 11, and 12 (see Exhibit A) and the remaining
                    31 tasks scheduled for completion after February 2007 – APHIS will develop an
                    assessment to determine the need for testing by February 28, 2008.

                    OIG Position.

                    We accept APHIS’ management decision.

Recommendation 9
                    Determine the languages that will maximize public outreach relating to HPAI
                    and produce and disseminate the communications accordingly.

                    Agency Response.

                    For the “Biosecurity for Birds” program, APHIS polled the States on which
                    populations were important to reach in order to maximize public outreach
                    relating to avian disease prevention. APHIS received requests for specific
                    languages and is willing to translate more languages if requested.
USDA/OIG-Audit 33701-01-Hy                                                                Page 16
                    APHIS will apply the findings from the consumer research done in the
                    development of the “Biosecurity for Birds” program to maximize public
                    outreach to an HPAI campaign.

                    OIG Position.

                    We accept APHIS’ management decision.




USDA/OIG-Audit 33701-01-Hy                                                       Page 17
Section 2               Implementation of Prior Recommendations

Finding 3……..
                                        APHIS has not fully implemented two of the eight recommendations from our
                                        prior report, which were intended to strengthen its ability to respond to an
                                        outbreak. This occurred because APHIS did not assign a program official
                                        with the responsibility to finalize corrective actions addressed in our prior
                                        report. These recommendations addressed such matters as coordinating with
                                        States to obtain their response plans and revising APHIS’ Response Plan (see
                                        Exhibit C).

                                        Although APHIS has taken strides to implement the corrective actions, it has
                                        not finalized its Response Plan or officially executed the agreements with
                                        State level authorities. Throughout our fieldwork, we attempted to obtain
                                        reasons why the prior recommendations had not been addressed. APHIS did
                                        not provide us with supporting documentation or justification for why
                                        corrective actions were not implemented in accordance with the agreed upon
                                        dates. Because the corrective actions have not been implemeted, APHIS has
                                        reduced assurance that it will be able to timely and effectively respond in the
                                        event of an outbreak. APHIS should take immediate action and assign
                                        responsibility to finalize corrective actions to address these two
                                        recommendations.

                                        •     APHIS Has Not Provided State Response Plans

                                               We disclosed in our prior audit that APHIS did not include detailed
                                               operational guidance in its Response Plan when dealing with HPAI in
                                               LBM, botanicas, 21 or other “off-farm” environments.

                                               We recommended that APHIS prepare and distribute detailed instructions
                                               for handling HPAI occurrences in the LBMs, botanicas, and other
                                               “off-farm” environments. APHIS agreed with our recommendation and
                                               indicated that it would work closely with its partners in the LBM
                                               Working Group, comprised of State and industry representatives, to
                                               develop further response plans and require State plans to be submitted to
                                               APHIS for certification (Recommendation 4). These plans are necessary
                                               to address gaps in the response plan, including cleaning and disinfection,
                                               humane euthanasia, quarantine, movement control, and other response
                                               areas as needed. Although APHIS recognized that this corrective action
                                               relied heavily on State participation, corrective action was agreed to and
                                               expected by December 2006. As of October 2007, APHIS had not
                                               provided the State response plans and evidence of acceptance or
                                               justification as to why corrective action was not implemented in
                                               accordance with the agreed upon date.
21
     Botanicas, which primarily are located in southern Florida, sell live-birds for ritual slaughter.
USDA/OIG-Audit 33701-01-Hy                                                                                      Page 18
                    •   Response Plan

                        In the prior audit, we found that APHIS did not have notification
                        procedures in place to inform owners of animals with the risk of being
                        infected during an outbreak.

                        We recommended that APHIS augment the Response Plan with details of
                        the notification process for States, media, and industry, to include
                        identification of the roles and responsibilities of personnel involved,
                        specific timeframes for action, and linkage to the Standard Operating
                        Procedures set forth in the AI Response Plan (Recommendation 8). As of
                        May 2007, APHIS had revised the Response Plan but had not finalized it.
                        As of October 2007, APHIS had not provided the final document or
                        justification as to why corrective action was not implemented in
                        accordance with the agreed upon date. As noted in APHIS’ response to
                        recommendations in this report, the requirements were met and final
                        action is pending with the Office of the Chief Financial Officer (OFCO).

Recommendation 10
                    Immediately assign responsibility to finalize corrective actions set forth in
                    Audit Report No. 33099-11-Hy and provide the timeframes for implementing
                    the corrective actions.

                    Agency Response.

                    APHIS’ response stated that Recommendation 8 of Audit Report
                    No. 33099-11-Hy is currently pending closure at OCFO. Recommendation 4 is
                    the only outstanding recommendation. With regards to this recommendation,
                    APHIS provides standards and criteria in the form of the HPAI National
                    Response Plan. APHIS recognizes that States, industry, and stakeholders have
                    requested another level of detail. APHIS expects to provide additional guidance
                    in the form of procedures and checklists with the next major revision of the
                    HPAI National Response Plan in 2008. The current program for State plans is
                    limited to LPAI Initial State Response and Containment Plans as outlined under
                    the National Poultry Improvement Program. While the focus of these plans, as
                    defined in the regulations, is LPAI, it must be noted that many of the actions and
                    responses are equally applicable to HPAI situations and the States may use part
                    or all of the plans in a HPAI outbreak situation. At this time, APHIS has no
                    plans in place to initiate or implement a State HPAI certification program.

                    OIG Position.

                    For management decision, APHIS needs to request a change in management
                    decision for Recommendation 4 of Audit Report No. 33099-11-Hy that explains
                    why the agency is not requiring State plans to be submitted to APHIS for
                    certification.
USDA/OIG-Audit 33701-01-Hy                                                                   Page 19
Scope and Methodology
                    The Plan assigned 98 tasks to USDA, of which 12 were reviewed by GAO
                    (See Exhibit B). Of the remaining 86, we reviewed 55 tasks that were due to
                    be completed by February 2007 (26 lead and 29 support tasks). Our audit
                    focused on evaluating whether USDA adequately implemented the tasks
                    within the prescribed timeframes required by the Plan. We assessed the
                    progress reported by USDA, noting whether policies and procedures were
                    developed or revised. We also determined if APHIS took steps to test if the
                    policies and procedures would work as designed and be effective.

                    We primarily reviewed the status submissions to HSC and obtained
                    supporting documentation. To do this we obtained read-only access to
                    “QuickPlace” and were able to review USDA’s status updates and the
                    supporting documentation submitted to HSC. We interviewed 26 APHIS
                    employees, including the Deputy Administrator and Associate Deputy
                    Administrator for VS, as well as the Directors and staff of the VS offices:
                    (1) National Center for Animal Health Emergency Management, (2) National
                    Veterinary Services Laboratories, (3) National Center for Animal Health
                    Programs, (4) National Center for Import and Export, and 5) National Animal
                    Health Policy and Programs. Because certain tasks in the Plan were the
                    responsibility of other agencies within USDA, we also interviewed officials
                    from FAS, ARS, FSIS, and OC. We obtained an understanding of the roles
                    and responsibilities of APHIS as they relate to implementing the tasks
                    addressed in the Plan and associated supporting documentation.

                    In addition, we followed-up on the actions taken to implement the
                    recommendations provided to APHIS in a prior report, Oversight of Avian
                    Influenza, Audit Report No. 33099-11-Hy, issued June 2006.

                    We conducted our audit from October 2006 to May 2007, in accordance with
                    generally accepted Government Auditing Standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objectives. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objectives. We
                    updated the status of our audit results through July 2007, and subsequently in
                    September and October 2007.




USDA/OIG-Audit 33701-01-Hy                                                                Page 20
Exhibit A – 26 Lead Tasks
                             Exhibit A – Page 1 of 3
U




USDA/OIG-Audit 33701-01-Hy                  Page 21
Exhibit A – 26 Lead Tasks
                             Exhibit A – Page 2 of 3




USDA/OIG-Audit 33701-01-Hy                 Page 22
Exhibit A – 26 Lead Tasks
                             Exhibit A – Page 3 of 3




USDA/OIG-Audit 33701-01-Hy                 Page 23
Exhibit B – GAO Tasks
                             Exhibit B – Page 1 of 2




USDA/OIG-Audit 33701-01-Hy                 Page 24
Exhibit B – GAO Tasks
                             Exhibit B – Page 2 of 2




USDA/OIG-Audit 33701-01-Hy                 Page 25
Exhibit C – Followup on OIG’s 8 Prior Recommendations
                                                                                                Exhibit C – Page 1 of 1


  Rec.         Prior Recommendations                      Management    Final
  No.            Addressed by Audit                        Decision    Action                  Status
                 Report 33099-11-Hy                         Yes/No     Yes/No


         Develop and implement a comprehensive
         avian influenza surveillance plan to include
   1     goals and objectives, case definitions, data        Yes        Yes
         collection and analysis methodologies,
         reporting of surveillance results, and
         assessment of surveillance program.
         Perform and document an analysis
         identifying gaps in sampling surveillance,
   2     and assessing risk as a basis for determining       Yes        Yes
         the need for additional sampling, or
         documenting the basis for any decision not
         to sample a portion of the population.
         Review the EMRS database and ensure
   3     resolution of all cases where a potential           Yes        Yes
         diagnosis of FAD has not been resolved
         within an appropriate period of time.
         Prepare and distribute detailed instructions
         for handling HPAI occurrences in LBM,                                  Nothing yet submitted to OCFO for final
   4     botanicas,     and     other       “off-farm”       Yes        No      action. APHIS has not received or
         environments. In addition, provide approved                            approved the States’ plans.
         State plans along with certifications that all
         States have an approved plan.
         Develop and implement procedures for
   5     obtaining and administering the necessary           Yes        Yes
         vaccines and anti-virals in the event that a
         culling operation for HPAI occurs.
         Coordinate with FSA to ensure the                                      The requirements were met and final
   6     availability of updated mailing lists for use       Yes        Yes
                                                                                action is pending with OCFO.
         in the event of HPAI outbreak.
         Develop and distribute instructions for                                The requirements were met and final
   7     obtaining notification information from             Yes        Yes
                                                                                action is pending with OCFO.
         FSA.
         Augment the Response Plan with details of
         the notification process for States, media,
         and industry, to include identification of the
         roles and responsibilities of personnel                                The requirements were met and final
   8                                                         Yes        Yes
         involved, specific timeframes for action, and                          action is pending with OCFO.
         linkage to the Standard Operating
         Procedures set forth in the Avian Influenza
         Response Plan.



USDA/OIG-Audit 33701-01-Hy                                                                                  Page 26
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 7




USDA/OIG-Audit 33701-01-Hy                Page 27
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 7




USDA/OIG-Audit 33701-01-Hy                Page 28
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 7




USDA/OIG-Audit 33701-01-Hy                Page 29
Exhibit D – Agency Response
                              Exhibit D – Page 4 of 7




USDA/OIG-Audit 33701-01-Hy                Page 30
Exhibit D – Agency Response
                              Exhibit D – Page 5 of 7




USDA/OIG-Audit 33701-01-Hy                Page 31
Exhibit D – Agency Response
                              Exhibit D – Page 6 of 7




USDA/OIG-Audit 33701-01-Hy                Page 32
Exhibit D – Agency Response
                              Exhibit D – Page 7 of 7




USDA/OIG-Audit 33701-01-Hy                  Page 33
